N o. _ _ _ _ _
________________
I N T H E
S U P R E M E C O U R T O F T H E U NI T E D S T A T E S
_______________
M I C H A E L G R E G O R Y H U B B A R D, P etiti o n e r ,
v.
S T A T E O F A L A B A M A , R e s p o n d e nt .
________________
P etiti o n f o r W rit of C e rti o r a ri t o
t h e S u p r e m e C o u rt of Al a b a m a
________________
P E TI TI O N F O R W RI T O F C E R TI O R A RI
________________
S a m H el d m a n
T h e G a r d n e r Fi r m, P C
2 8 0 5 3 1 st St. N W
W a s hi n gt o n D C 2 0 0 0 8
( 2 0 2) 9 6 5-8 8 8 4
s h el d m a n @ g m ail. c o m
C o u n s el of R e c o r d
J o el E. Dill a r d
D a vi d M c K ni g ht
Dill a r d, M c K ni g ht
J a m e s & M c El r o y
P o st Offi c e B o x 5 3 0 3 3 3
Bi r mi n g h a m, Al a b a m a 3 5 2 5 3
( 2 0 5) 2 7 1-1 1 0 0

R. L a n c e B ell
T r u s s ell F u n d e r b u r g
R e a & B ell P C
1 9 0 5 Fi r st A v e n u e S o ut h
P ell Cit y, Al a b a m a 3 5 1 2 5
( 2 0 5) 3 3 8-7 2 7 3

Q u e s ti o n P r e s e n t e d
Di d t h e S u p r e m e C o u rt of Al a b a m a d e p ri v e P etiti o n e r of d u e p r o c e s s of l a w,
w h e n it affi r m e d hi s c o n vi cti o n b a s e d o n ( a) fi r st -i m p r e s si o n i nt e r p r et ati o n s of
c ri mi n al st at ut e s t h at a r e a s o n a bl e p e r s o n w o ul d n ot h a v e k n o w n t o b e t h e
l a w, an d ( b) a f a ct u al t h e o r y (t h at P etiti o n e r t o o k c e rt ai n offi ci al a cti o n s i n
e x c h a n g e f o r p a y m e nt) t h at t h e p r o s e c ut o r s h a d d e cl a r e d at t ri al t o b e
i r r el e v a nt t o t h ei r c a s e ?

i

P a r ti e s t o t h e P r o c e e di n g B el o w

T h e p a rti e s a r e li st e d i n t h e c a pti o n of t h e c a s e.

R el a t e d P r o c e e di n g s
T hi s c a s e w a s t ri e d i n t h e Ci r c uit C o u rt of L e e C o u nt y, Al a b a m a, a s St at e
of Al a b a m a v.

Mi c h a el G r e g o r y H u b b a r d , N o. C C-2 0 1 4 -5 6 5. J u d g m e nt w a s

e nt e r e d i n t h e Ci r c uit C o u rt S e pt e m b e r 6, 2 0 1 6.
T h e c a s e w a s ti m el y a p p e al e d t o t h e Al a b a m a C o u rt of C ri mi n al A p p e al s,
a s Mi c h a el G r e g o r y H u b b a r d v. St at e , N o. C R-1 6 -0 0 1 2. T h e C o u rt of C ri mi n al
A p p e al s i s s u e d it s d e ci si o n o n A u g u st 2 7, 2 0 1 8, a n d d e ni e d r e h e a ri n g o n
S e pt e m b e r 2 8, 2 0 1 8.
T h e S u p r e m e C o u rt of Al a b a m a g r a nt e d r e vi e w i n E x p a rt e

Mi c h a el

G r e g o r y H u b b a r d , N o. 1 1 8 0 0 4 7. T h at C o u rt i s s u e d it s d e ci si o n o n A p ril 1 0,
2 0 2 0, a n d d e ni e d r e h e a ri n g o n A u g u st 2 8, 2 0 2 0.

ii

T a bl e of C o n t e n t s
Q u e sti o n P r e s e nt e d . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .

i

P a rti e s t o t h e P r o c e e di n g B el o w . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .

ii

R el at e d P r o c e e di n g s . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .

ii

T a bl e of A ut h o riti e s . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .

iv

P etiti o n f o r W rit of C e rti o r a ri . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .

1

O pi ni o n s B el o w . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .

1

J u ri s di cti o n . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .

2

St at ut e s I n v ol v e d . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .

2

St at e m e nt . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .

3

R e a s o n s f o r G r a nti n g t h e P etiti o n . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .

6

C o n cl u si o n . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .

17

A p p e n di x (i n s e p a r at e v ol u m e)
A: O pi ni o n of S u p r e m e C o u rt of Al a b a m a . . . . . . . . . . . . . . . . . . . . . . . . . .

1a

B: O pi ni o n of Al a b a m a C o u rt of C ri mi n al A p p e al s . . . . . . . . . . . . . . . . .

100a

C: O r d e r of S u p r e m e C o u rt of Al a b a m a d e n yi n g r e h e a ri n g . . . . . . . . . .

260a

D: St at ut e s . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .

261a

iii

T a bl e of A u t h o ri ti e s
C as es
B o ui e v. Cit y of C ol u m b i a, 3 7 8 U. S. 3 47 ( 1 9 6 4) . . . . . . . . . . . . . . . . . . . . . . .

5

C ol e v. A r k a n s a s , 3 3 3 U. S. 1 9 6 ( 1 9 4 8) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7
C o n n all y v. G e n. C o n st r. C o. , 2 6 9 U. S. 3 8 5 ( 1 9 2 6) . . . . . . . . . . . . . . . . . . . . .

5

D u n n v. U nit e d St at e s , 4 4 2 U. S. 1 0 0 ( 1 9 7 9) . . . . . . . . . . . . . . . . . . . . . . . . . .

7

J a c k s o n v. Vi r gi ni a , 4 4 3 U. S. 3 0 7 ( 1 9 7 9) . . . . . . . . . . . . . . . . . . . . . . . . . . . .

7

J o h n s o n v. U nit e d St at e s , 5 7 6 U. S. 5 9 1 ( 2 0 1 5) . . . . . . . . . . . . . . . . . . . . .

4, 5

L a n z ett a v. N e w J e r s e y , 3 0 6 U. S. 4 5 1 ( 1 9 3 9) . . . . . . . . . . . . . . . . . . . . . . . . .

5

O pi ni o n of J u sti c e s N o. 3 1 7 , 4 7 4 S o. 2 d 7 0 0 ( Al a. 1 9 8 5) . . . . . . . . . . . . . . . . . 2
S e s si o n s v. Di m a y a , _ _ _ U. S. _ _ _, 1 3 8 S. Ct. 1 2 0 4 ( 2 0 1 8) . . . . . . . . . . . . .

6, 7

U nit e d St at e s v. B at c h el d e r , 4 4 2 U. S. 1 1 4 ( 1 9 7 9) . . . . . . . . . . . . . . . . . . . . . . 4
U nit e d St at e s v. D a vi s , _ _ _ U. S. _ _ _, 1 3 9 S. Ct. 2 3 1 9 ( 2 0 1 9) . . . . . . . . . . . .

6

F e d e r al C o n s ti t u ti o n a n d L a w s
U nit e d St at e s C o n stit uti o n, A m d. X I V . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .

2

2 8 U. S. C. § 1 2 5 7 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .

2

S t a t e l a w s a n d o t h e r s t a t e a u t h o ri ti e s
Al a. C o d e § 3 6 -2 5 -1( 2) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .

12

Al a. C o d e § 3 6 -2 5 -1( 3 4) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .

2, 9

iv

Al a. C o d e § 3 6 -2 5 -1. 1 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .
Al a. C o d e § 3 6 -2 5 -5( a) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .

2, 15

2 , 1 1, 1 2

Al a. C o d e § 3 6 -2 5 -5( c) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2, 1 3
Al a. C o d e § 3 6 -2 5 -5. 1( a) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .

2, 8

Al a. C o d e § 3 6 -2 5 -7( b) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .

2, 3

Al a. Et hi c s C o m m’ n A d vi s o r y O pi ni o n N o. 2 0 1 6 -2 7 . . . . . . . . . . . . . . . . . . . . 9

v

N o. _ _ _ _ _
________________
I N T H E
S U P R E M E C O U R T O F T H E U NI T E D S T A T E S
_______________
M I C H A E L G R E G O R Y H U B B A R D, P etiti o n e r ,
v.
S T A T E O F A L A B A M A, R e s p o n d e nt .
________________
P etiti o n f o r W rit of C e rti o r a ri t o
t h e S u p r e m e C o u rt of Al a b a m a
________________
P E TI TI O N F O R W RI T O F C E R TI O R A RI
________________
P etiti o n e r Mi c h a el

Gr e g or y

H u b b ar d

r e s p e ctf ull y p r a y s t h at a

w rit of

c e rti o r a ri i s s u e t o r e vi e w t h e d e ci si o n of t h e S u p r e m e C o u rt of Al a b a m a , E x
p a rt e H u b b a r d , _ _ _ S o. 3 d _ _ _ ( Al a. 2 0 2 0) ( N o. 1 1 8 0 0 4 7).
O pi ni o n s B el o w
T h e o pi ni o n of t h e S u p r e m e C o u rt of Al a b a m a , t o b e r e p o rt e d at _ _ _ S o. 3 d
_ _ _, i s r e p r o d u c e d i n t h e A p p e n di x at 1 a-9 9 a. T h e o r d e r of t h e S u p r e m e C o u rt
of Al a b a m a d e n yi n g r e h e a ri n g i s r e p r o d u c e d i n t h e A p p e n di x at 2 6 0 a .

T he

o pi ni o n of t h e Al a b a m a C o u rt of C ri mi n al A p p e al s , t o b e r e p o rt e d at _ _ _ S o. 3 d.
_ _ _, i s r e p r o d u c e d i n t h e a p p e n di x at 1 0 0 a -2 5 9 a . T h e Ci r c uit C o u rt of L e e

1

C o u nt y, Al a b a m a, di d n ot i s s u e a n o pi ni o n r e g a r di n g t h e d e ni al of P etiti o n e r’ s
r e n e w e d m oti o n f o r j u d g m e nt of a c q uitt al.
J u ri s di c ti o n
T hi s C o u rt h a s j u ri s di cti o n u n d e r 2 8 U. S. C. § 1 2 5 7 . T h e S u p r e m e C o u rt of
Al a b a m a i s s u e d it s d e ci si o n o n A p ril 1 0, 2 0 2 0, a n d d e ni e d P etiti o n e r ’s ti m el y
a p pli c ati o n f o r r e h e a ri n g o n A u g u st 2 8, 2 0 2 0.
S t a t u e s a n d C o n s ti t u ti o n al P r o vi si o n I n v ol v e d
S e cti o n 1 of t h e F o u rt e e nt h A m e n d m e nt t o t h e U nit e d St at e s C o n stit uti o n
p r o vi d e s, i n p e rti n e nt p a rt, “ N o st at e s h all m a k e o r e nf o r c e a n y l a w w hi c h s h all
a b ri d g e t h e p ri vil e g e s o r i m m u niti e s of citi z e n s of t h e U nit e d St at e s; n o r s h all
a n y st at e d e p ri v e a n y p e r s o n of lif e, li b e rt y, o r p r o p e rt y, wit h o ut d u e p r o c e s s
of l a w; ….”
P e rti n e nt Al a b a m a st at ut e s, i n cl u di n g Al a. C o d e § § 3 6 -2 5 -1 ( 3 4)b. 1 0 ,-1. 1, 5( a), -5( c), -5. 1( a), a n d -7( b) , a r e s et f o rt h i n t h e a p p e n di x at 2 6 1 a -2 6 3 a.
St at e m e nt
Mi k e H u b b a r d w a s S p e a k e r of t h e Al a b a m a H o u s e of R e p r e s e nt ati v e s. Li k e
m o st of hi s c oll e a g u e s i n t h e L e gi sl at u r e , s e e O pi ni o n of J u sti c e s N o. 3 1 7 , 4 7 4
S o. 2 d 7 0 0, 7 0 4 ( Al a. 1 9 8 5), H u b b a r d al s o h a d a c a r e e r o ut si d e t h e L e gi sl at u r e.
T h at i s b e c a u s e Al a b a m a, li k e

m a n y st at e s, h a s c h o s e n t o h a v e a citi z e n -

2

l e gi sl at u r e r at h e r t h a n a l e gi sl at u r e m a d e of f ull-ti m e offi ci al s.
H u b b a r d f o u n d hi m s elf i n t h e si g ht s of a p r o s e c ut o r w h o ( a c c o r di n g t o t h e
u n di s p ut e d e vi d e n c e of r e c o r d) t ol d a c oll e a g u e t h at h e h a d “ d et e r mi n e d [t h at
H u b b a r d] w a s a b a d g u y a n d t h at w hil e h e h a d -- m a y n ot h a v e c o m mitt e d
c ri m e, h e h a d d o n e e v e r yt hi n g p o s si bl e t o l o o k g uilt y,” a n d s o t h e p r o s e c ut o r
h a d d e ci d e d t o “ti e a n o o s e a r o u n d [ H u b b a r d’ s] [ e x pl eti v e] n e c k a n d ci n c h it
d o w n u ntil h e i s g r a s pi n g f o r [ e x pl eti v e] ai r, a n d t h e n p e r h a p s t h e n [ H u b b a r d]
w o ul d pl e a d g uilt y a n d r e si g n.”
H u b b a r d w a s i n di ct e d o n 2 3 c o u nt s.
I m p o rt a ntl y, H u b b a r d

w as

n ot

c h ar g e d

wit h s oli citi n g o r r e c ei vi n g

a n yt hi n g i n e x c h a n g e f o r ( o r f o r t h e p u r p o s e of c o r r u ptl y i nfl u e n ci n g) hi s
offi ci al a cti o n s, u n d e r Al a. C o d e § 3 6 -2 5 -7( b). Al a b a m a h a s st r o n g l a w o n t h at
s u bj e ct, a n d H u b b a r d di d n ot e v e n all e g e dl y vi ol at e it.

T h e p r o s e c ut o r s

r e p e at e dl y n ot e d t h at H u b b a r d w a s n ot c h a r g e d wit h a n y q ui d p r o q u o . An d
i n d e e d, e v e n b e y o n d t h at, t h e y o bj e ct e d at t ri al o n r el e v a n c e g r o u n d s t o a
q u e sti o n a b o ut w h et h e r h e h a d e v e r e n g a g e d i n a q ui d p r o q u o f o r a n y offi ci al
a cti o n o r i n a cti o n. 1 T h u s t h e p r o s e c ut o r s m a d e cl e a r t h at n o n e of t h e c h a r g e s

Q: O k a y, D o y o u k n o w of a n y i n di vi d u al o r a n y g r o u p o r a n y b o d y t h at e v e r
p ai d t h e S p e a k e r a n y m o n e y o n a q ui d p r o q u o b a si s t o g et hi m t o d o c e rt ai n
a cti o n o r wit h h ol d c e rt ai n a cti o n ?
M R. D U F F Y: O bj e cti o n, Y o u r H o n o r, a s t o r el e v a n c e.
T H E C O U R T: O v e r r ul e d . H e c a n a s k if w e k n o w s a b o ut it. [f o ot n ot e c o nti n u e s]

1

3

w e r e b a s e d o n a n y q ui d p r o q u o f a ct u al t h e o r y; a n y s u c h t hi n g w a s si m pl y
i r r el e v a nt t o t h e St at e’ s t h e o r y of t h e c a s e. S o, H u b b a r d t h e n k n e w f o r c e rt ai n
t h at h e di d n ot h a v e t o d ef e n d hi m s elf a g ai n st a n y s u c h f a ct u al t h e o r y.
T h e j u r y a c q uitt e d H u b b a r d o n el e v e n c o u nt s a n d c o n vi ct e d hi m o n t w el v e.
H e w a s s e nt e n c e d t o y e a r s i n p ri s o n, a n d h a s r e c e ntl y b e g u n s e r vi n g hi s
s e nt e n c e. Aft e r t h e st at e -c o u rt a p p ell at e p r o c e s s, o nl y si x c o u nt s r e m ai n; t h e
ot h e r si x c o u nt s of c o n vi cti o n w e r e r e v e r s e d b a s e d o n i n s uffi ci e n c y of t h e
e vi d e n c e ( o n e b y t h e Al a b a m a C o u rt of C ri mi n al A p p e al s, a n d fi v e m o r e b y t h e
S u p r e m e C o u rt of Al a b a m a).
H u b b a r d r ai s e d t h e d u e p r o c e s s i s s u e, r e g a r di n g t h e r e q ui r e m e nt t h at
c ri mi n al st at ut e s m u st gi v e f ai r n oti c e of w h at t h e y p r o hi bit, i n t h e t ri al c o u rt.
F o r i n st a n c e, i n hi s r e n e w e d m oti o n f o r j u d g m e nt of a c q uitt al o r f o r n e w t ri al,
h e r e p e at e dl y r et u r n e d t o t h at a r g u m e nt a n d cit e d t hi s C o u rt’ s d e ci si o n s i n
J o h n s o n v. U nit e d St at e s , 5 7 6 U. S. 5 9 1 ( 2 0 1 5) a n d U nit e d St at e s v. B at c h el d e r ,
4 4 2 U. S. 1 1 4 ( 1 9 7 9) .
H u b b a r d t h e n p r e s s e d hi s f e d e r al d u e p r o c e s s a r g u m e nt i n t h e C o u rt of
C ri mi n al A p p e al s. A m o n g t h e i s s u e s h e p r e s e nt e d w a s “ w h et h e r, c o n si st e nt
wit h f e d e r al a n d st at e c o n stit uti o n al r e q ui r e m e nt s of d u e p r o c e s s, H u b b a r d

M R. D U F F Y: H e h a s n’t b e e n c h a r g e d wit h a q ui d p r o q u o, Y o u r H o n o r.
T H E C O U R T: W ell, I u n d e r st a n d. Y’ all c a n a s k hi m t h at o n r e di r e ct. B ut h e
c a n a n s w e r t h at.
4

c a n b e h el d c ri mi n all y li a bl e b a s e d o n a n s w e r s t o [ q u e sti o n s of st at ut o r y
i nt e r p r et ati o n] t h at w e r e n ot cl e a r at t h e ti m e of hi s a cti o n s .” H e r e p e at e dl y
r eli e d o n t hi s C o u rt’ s c a s e s i n cl u di n g J o h n s o n .
H u b b a r d c o nti n u e d t o p r e s s hi s f e d e r al d u e p r o c e s s a r g u m e nt i n t h e
S u p r e m e C o u rt of Al a b a m a. I n hi s st at e -c o u rt p etiti o n f o r c e rti o r a ri, at p. 1, h e
p r e s s e d “ t h e q u e sti o n w h et h e r a li a bilit y -e x p a n di n g i nt e r p r et ati o n of t h e s e
p r o vi si o n s, a d o pt e d a s a m att e r of fi r st i m p r e s si o n, vi ol at e s H u b b a r d' s st at e
a n d f e d e r al d u e p r o c e s s ri g ht s, s e e J o h n s o n v. U nit e d St at e s, 1 3 5 S. Ct. 2 5 5 1
( 2 0 1 5).” I n hi s b ri efi n g i n t h e st at e S u p r e m e C o u rt h e r e p e at e dl y u r g e d t h e
s a m e p oi nt. F o r i n st a n c e, i n hi s o p e ni n g b ri ef at p. 4, o n e of t h e i s s u e s h e
p r e s e nt e d

w a s “ w h et h e r, c o n si st e nt

r e q ui r e m e nt s of d u e p r o c e s s a s

wit h f e d e r al a n d st at e c o n stit uti o n al
w ell a s s ettl e d p ri n ci pl e s of st at ut o r y

i nt e r p r et ati o n, H u b b a r d c a n b e h el d c ri mi n all y li a bl e b a s e d o n a n s w e r s t o
[fi r st-i m p r e s si o n st at ut o r y i nt e r p r et ati o n] q u e sti o n s t h at w e r e n ot cl e a r at t h e
ti m e of hi s a cti o n s. ” H e a r g u e d ( at p. 2 6 of t h at s a m e b ri ef) t h at “ A s t o d u e
p r o c e s s, it i s w ell s ettl e d ( u n d e r b ot h t h e St at e a n d F e d e r al C o n stit uti o n s) t h at
n o o n e m a y b e c o n vi ct e d w h e r e it w a s n ot cl e a r, w h e n h e a ct e d, t h at s u c h a n
a ct w a s a c ri m e ,” a n d cit e d J o h n s o n , L a n z ett a v. N e w J e r s e y , 3 0 6 U. S. 4 5 1, 4 5 3
( 1 9 3 9), C o n n all y v. G e n. C o n st r. C o. , 2 6 9 U. S. 3 8 5, 3 9 1 ( 1 9 2 6), a n d B o ui e v.
Cit y of C ol u m b i a, 3 7 8 U. S. 3 47 ( 1 9 6 4). T h at t h e m e w a s r et u r n e d t o, t h r o u g h o ut

5

hi s b ri efi n g.
H u b b a r d n ot e d t h r o u g h o ut hi s a p p ell at e b ri efi n g t h at h e w a s n ot c h a r g e d
wit h a n y q ui d p r o q u o a n d i n d e e d t h at t h e p r o s e c ut o r s h a d t a k e n a n y f a ct u al
q ui d p r o q u o t h e o r y off t h e t a bl e b y e m p h a si zi n g i n o p e n c o u rt t h at a n y
q u e sti o n a b o ut w h et h e r h e h a d e n g a g e d i n a n y q ui d p r o q u o w a s i r r el e v a nt t o
t h ei r c a s e.

W h e n t h e S u p r e m e C o u rt of Al a b a m a t h e n i s s u e d it s o pi ni o n

s u g g e sti n g t h at a f a ct u al t h e o r y of q ui d p r o q u o s e e m e d t o b e t h e b a si s f o r
affi r m a n c e of s o m e c o u nt s, H u b b a r d n ot e d i n hi s r e h e a ri n g a p pli c ati o n t h at
t hi s w a s a vi ol ati o n of hi s f e d e r al d u e p r o c e s s ri g ht s.
R e a s o n s f o r G r a n ti n g t h e P e ti ti o n
T hi s P etiti o n d o e s n ot a s k t h e C o u rt t o b r e a k n e w g r o u n d. I n st e a d it a s k s
t h e C o u rt t o u n d e r s c o r e t h e i m p o rt a n c e of d u e -p r o c e s s p ri n ci pl e s – i n cl u di n g
t h e p ri n ci pl e of f ai r w a r ni n g i n c ri mi n al st at ut e s, w hi c h t hi s C o u rt h a s r e c e ntl y
a n d r e p e at e dl y r e -e m p h a si z e d a s t o f e d e r al c ri mi n al st at ut e s – b y a p pl yi n g
t h o s e p ri n ci pl e s t o a st at e -c o u rt c ri mi n al p r o c e e di n g.
T h e fi r st r el e v a nt p ri n ci pl e i s t h e d u e p r o c e s s p ri n ci pl e of “f ai r n oti c e” o r
“f ai r w a r ni n g.” A st at ut e c r e ati n g c ri m i n al p e n alti e s i s u n c o n stit uti o n al if it
d o e s n ot gi v e a r e a s o n a bl e p e r s o n f ai r w a r ni n g of w h at i s p r o s c ri b e d. S e e , e. g. ,
U nit e d St at e s v. D a vi s , _ _ _ U. S. _ _ _, 1 3 9 S. Ct. 2 3 1 9, 2 3 2 5 ( 2 0 1 9) ; S e s si o n s v.
Di m a y a , _ _ _ U. S. _ _ _, 1 3 8 S. Ct. 1 2 0 4, 1 2 2 5 ( 2 0 1 8) . T he c o r oll a r y i s t h at it i s

6

u n c o n stit uti o n al f o r a c o u rt t o r e a d a c ri mi n al st at ut e a s p r o s c ri bi n g s o m et hi n g
w h e r e t h e st at ut e it s elf di d n ot gi v e f ai r w a r ni n g of it . As r efl e ct e d i n Di m a y a ,
1 3 8 S. Ct. at 1 2 2 7 -2 8, t h e “f ai r w a r ni n g” p ri n ci pl e li v e s al o n g si d e t h e p ri n ci pl e
t h at it

m u st r e m ai n t h e p r o vi n c e of l e gi sl at u r e s, r at h e r t h a n c o u rt s o r

p r o s e c ut o r s, t o d efi n e t h e s c o p e of c ri mi n al l a w s wit h p r e ci si o n t h at c a n b e
u n d e r st o o d i n a d v a n c e.
T h e ot h e r r el e v a nt p ri n ci pl e i s t h at a n a p p ell at e c o u rt m a y n ot, c o n si st e nt
wit h d u e p r o c e s s, affi r m a c o n vi cti o n b a s e d o n a t h e o r y t h at i s n ot all e g e d i n
t h e i n di ct m e nt a n d t h at i s diff e r e nt f r o m t h e t h e o r y a ct u all y t ri e d t o t h e j u r y
b y t h e p r o s e c uti o n. D u n n v.

U nit e d St at e s , 4 4 2

U. S. 1 0 0, 1 0 7 ( 1 9 7 9) T hi s

p ri n ci pl e h a s it s r o ot s i n c a s e s s u c h a s C ol e v. A r k a n s a s , 3 3 3 U. S. 1 9 6, 2 0 1
( 1 9 4 8) (“N o p ri n ci pl e of p r o c e d u r al d u e p r o c e s s i s m o r e cl e a rl y e st a bli s h e d t h a n
t h at n oti c e of t h e s p e cifi c c h a r g e, a n d a c h a n c e t o b e h e a r d i n a t ri al of t h e
i s s u e s r ai s e d b y t h at c h a r g e, if d e si r e d, a r e a m o n g t h e c o n stit uti o n al ri g ht s of
e v e r y a c c u s e d i n a c ri mi n al p r o c e e di n g i n all c o u rt s, st at e o r f e d e r al. ”). It i s
p a rt of t h e “ b r o a d e r p r e mi s e t h at h a s n e v e r b e e n d o u bt e d i n o u r c o n stit uti o n al
s y st e m: t h at a p e r s o n c a n n ot i n c u r t h e l o s s of li b e rt y f o r a n off e n s e wit h o ut
n oti c e a n d a m e a ni n gf ul o p p o rt u nit y t o d ef e n d. ” J a c k s o n v. Vi r gi ni a , 4 4 3 U. S.
3 0 7, 3 1 4 ( 1 9 7 9). A s n ot e d a b o v e i n t h e St at e m e nt, t h e p r o s e c ut o r s m a d e cl e a r
at t r i al n ot o nl y t h at H u b b a r d w a s n ot c h a r g e d wit h a n y q ui d p r o ; b e y o n d t h at,

7

t h e y s ai d, w h et h e r t h e r e w a s a n y q ui d p r o q u o w a s w h oll y i r r el e v a nt t o t h ei r
c a s e. U n d e r t hi s f u n d a m e nt al p ri n ci pl e of f ai r n e s s, t h at vi e w of t h e c a s e h a d t o
r e m ai n c o n st a nt t h r o u g h t h e a p p ell at e p r o c e s s.
O n e a c h r e m ai ni n g c o u nt i n t h e c a s e,

H u b b a r d’ s

c o n vi cti o n a n d t h e

affi r m a n c e b y t h e S u p r e m e C o u rt of Al a b a m a vi ol at e o n e o r b ot h of t h e s e
p ri n ci pl e s.
1. C o u nt s 6 a n d 1 0 a r o s e u n d e r Al a. C o d e § 3 6 -2 5 -5. 1( a), w hi c h p r o vi d e s i n
p e rti n e nt p a rt t h at “ n o p u bli c e m pl o y e e o r p u bli c offi ci al o r f a mil y m e m b e r of
t h e p u bli c e m pl o y e e o r f a mil y

m e m b e r of t h e p u bli c offi ci al s h all s oli cit o r

r e c ei v e a t hi n g of v al u e f r o m a l o b b yi st, s u b o r di n at e of a l o b b yi st, o r p ri n ci p a l.”
B e c a u s e m a n y p u b li c offi c e s (i n cl u di n g t h e offi c e of l e gi sl at o r) a r e p a rt-ti m e,
a n d b e c a u s e t h e p r o hi biti o n a p pli e s t o f a mil y m e m b e r s a s w ell, t h e st at ut o r y
s c h e m e i n cl u d e s a n i m p o rt a nt e x c e pti o n s o t h at s u c h p e o pl e c a n h a v e j o b s e v e n
if t h e y i n v ol v e w o r ki n g f o r a p ri n ci pal (i. e., a n e ntit y t h at r et ai n s a l o b b yi st). It
c o m e s i n t h e d efi niti o n of “t hi n g of v al u e”:
T h e t e r m, t hi n g of v al u e, d o e s n ot i n cl u d e a n y of t h e f oll o wi n g,
p r o vi d e d t h at n o p a rti c ul a r c o u r s e of a cti o n i s r e q ui r e d a s a
c o n diti o n t o t h e r e c ei pt t h e r e of: …
... C o m p e n s ati o n a n d ot h e r b e n efit s e a r n e d f r o m a n o ng o v e r n m e nt e m pl o y e r, v e n d o r, cli e nt, p r o s p e cti v e e m pl o y e r, o r
ot h e r b u si n e s s r el ati o n s hi p i n t h e o r di n a r y c o u r s e of
e m pl o y m e nt o r n o n -g o v e r n m e nt al b u si n e s s a cti viti e s u n d e r
ci r c u m st a n c e s w hi c h m a k e it cl e a r t h at t h e t hi n g i s p r o vi d e d f o r

8

r e a s o n s u n r el at e d t o t h e r e ci pi e nt' s p u bli c s e r vi c e a s a p u bli c
offi ci al o r p u bli c e m pl o y e e.
Al a. C o d e § 3 6 -2 5 -1( 3 4) b. 1 0.
W h at d o e s it

m e a n f o r s u c h a b u si n e s s r el ati o n s hi p t o e xi st “ u n d e r

ci r c u m st a n c e s w hi c h

m a k e it cl e a r t h at” t h e c o m p e n s ati o n “i s p r o vi d e d f o r

r e a s o n s u n r el at e d t o t h e r e ci pi e nt’ s p u bli c s e r vi c e a s a p u bli c offi ci al ?” T h e
Al a b a m a Et hi c s C o m mi s si o n – t h e b o d y t a s k e d wit h t h e p ri m a r y a ut h o rit y of
i nt e r p r eti n g t h e Et hi c s L a w – h a s w r e stl e d wit h t hi s f o r y e a r s a n d h a s b r o u g ht
littl e cl a rit y t o t h e t a bl e. E v e n y e a r s aft e r

H u b b a r d a ct e d, t h e

Et hi c s

C o m mi s si o n w a s still w r e stli n g t o p ut t o g et h e r a v a g u e, m ulti -f a ct o r a n al y si s
of t h e “ c o m p e n s ati o n” e x c e pti o n, a n a n al y si s u n d e r w hi c h n o o n e c o ul d p o s si bl y
k n o w i n a d v a n c e w h et h e r h e w a s o n s af e g r o u n d t a ki n g a j o b. S e e A d vi s o r y
O pi ni o n

N o. 2 0 1 6 -2 7 2 ( o pi ni o n o n t h e “ c o m p e n s ati o n” e x c e pti o n, r e n d e r e d

y e a r s aft e r H u b b a r d a ct e d, s etti n g o ut a n o n -e x h a u sti v e 1 0 -f a ct o r li st of t hi n g s
t o b e “ c o n si d e r[ e d],” wit h e a c h of t h o s e 1 0 c o nt ai ni n g v a ri o u s s u b -p a rt s, w hil e
e m p h a si zi n g t h at t h e o pi ni o n “i s n ot a c h e c kli st t h at if s ati sfi e d gi v e s a n y l e g al
p r ot e cti o n b a s e d o n t h e off e r o r r e c ei pt.”).
T h e S u p r e m e C o u rt of Al a b a m a, t h o u g h, t h o u g ht t h at i nt e r p r eti n g t hi s
c o m p e n s ati o n e x cl u si o n a n d it s p r o vi s o w a s si m pl e: j u st r e p e at t h e w o r d s of

2

< htt p:// et hi c s. al a b a m a. g o v/ d o c s/ p df/ A O 2 0 1 6 -2 7. p df. p df >
9

t h e st at ut e. “[ W] e h ol d t h at, t o

m e et t hi s el e m e nt of t h e c o m p e n s ati o n

e x cl u si o n, t h e c o m p e n s ati o n m u st b e p r o v i d e d s ol el y f o r r e a s o n s u n r el at e d t o
t h e offi ci al' s o r e m pl o y e e' s p u bli c s e r vi c e, a n d t h at u n r el at e d n e s s m u st b e cl e a r
f r o m t h e ci r c u m st a n c e s of t h e c o m p e n s ati o n.” [4 1 a -4 2 a ]. A n d s o, t h e m aj o rit y
h el d, H u b b a r d w a s i n eli gi bl e f o r t h e c o m p e n s ati o n e x cl u si o n b e c a u s e hi s st at u s
a s S p e a k e r h a d s o m et hi n g d o wit h w h y h e w a s a u s ef ul c o n s ult a nt t o t h e t w o
c o m p a ni e s at i s s u e i n C o u nt s 6 a n d 1 0: f o r i n st a n c e, h e c o ul d g et t h e m
i nt r o d u cti o n s t o ot h e r H o u s e S p e a k e r s o r offi ci al s i n ot h e r st at e s. [4 3 a -4 4 a ]. 3
T h e di s s e n t, b y c o nt r a st, a g r e e d

wit h

H u b b a r d s p e cifi c all y a b o ut t h e

a p p a r e nt m e a ni n g of t h e p h r a s e “ p u bli c s e r vi c e”:
I r e a d t h e st at ut e' s r ef e r e n c e t o " p u bli c s e r vi c e" a s t h e e x e r ci s e of
a n offi ci al' s g o v e r n m e nt al a ut h o rit y. I n m y o pi ni o n, c o m p e n s ati o n
u n d e r t h e Et hi c s C o d e i s n ot a "t hi n g of v al u e" u nl e s s it i s gi v e n i n
e x c h a n g e f o r t h e r e ci pi e nt' s u s e of a ct u al g o v e r n m e nt al p o w e r. T o
h ol d ot h e r wi s e w o ul d a p p e a r t o c ri mi n ali z e l e giti m at e b u si n e s s
a r r a n g e m e nt s i n w hi c h p a rt -ti m e l e gi sl at o r s a n d ot h e r p a rt -ti m e
el e ct e d offi ci al s r o uti n el y e n g a g e.
[8 8 a -8 9 a ( S ell e r s, J., di s s e nti n g)].
H u b b a r d di d n ot h a v e f ai r w a r ni n g t h at t h e m aj o rit y’ s vi e w w a s h o w t h e

H u b b a r d h a d p oi nt e d o ut t h e a st o u n di n g r e s ult s t h at w o ul d c o m e f r o m a
b r o a d r e a di n g of t h e p r o hi biti o n. F o r i n st a n c e, it w o ul d s e e m t h at a P r of e s s o r
of E n gi n e e ri n g at A u b u r n o r t h e U ni v e r sit y of A l a b a m a w o ul d c o m mit a f el o n y
b y p r o vi di n g c o n s ulti n g s e r vi c e s t o, o r t e stif yi n g a s a n e x p e rt wit n e s s f o r,
Al a b a m a P o w e r C o m p a n y o r a n y of t h e h u n d r e d s of ot h e r c o m p a ni e s t h at
r et ai n l o b b yi st s i n Al a b a m a. T h e C o u rt di d n ot d e n y t hi s, o r d e n y t h at s u c h a n
a p pli c ati o n of t h e st at ut e w o ul d b e a st u n ni n g s u r p ri s e.

3

10

st at ut e m u st b e r e a d , o r f ai r w a r ni n g t h at t h e di s s e nt w a s w r o n g. H e di d n ot
h a v e f ai r w a r ni n g t h at d oi n g o ut -of -st at e n et w o r ki n g, wit h c o nt a ct s t h at h e
m a d e b y vi rt u e of b ei n g S p e a k e r, w a s a vi ol ati o n of t h e l a w.

4

2. C o u nt 1 1 a r o s e u n d e r Al a. C o d e § 3 6 -2 5 -5( a), w hi c h p r o vi d e s:
N o p u bli c offi ci al o r p u bli c e m pl o y e e s h all u s e o r c a u s e t o b e u s e d
hi s o r h e r of fi ci al p o siti o n o r offi c e t o o bt ai n p e r s o n al g ai n f o r
hi m s elf o r h e r s elf, o r f a mil y m e m b e r of t h e p u bli c e m pl o y e e o r
f a mil y m e m b e r of t h e p u bli c offi ci al, o r a n y b u si n e s s wit h w hi c h
t h e p e r s o n i s a s s o ci at e d u nl e s s t h e u s e a n d g ai n a r e ot h e r wi s e
s p e cifi c all y a ut h o ri z e d b y l a w.
T h e f a ct s t h at t h e Al a b a m a S u p r e m e C o u rt r eli e d o n t o fi n d a vi ol ati o n of
t hi s s e cti o n

w e r e, i n s u m m a r y [ 52 a] , t h at

H u b b a r d h a d a fi x e d-r et ai n e r

c o n s ulti n g c o nt r a ct wit h a c u p -m a n uf a ct u ri n g c o m p a n y (“ C a pit ol C u p s”) b a s e d
i n hi s l e gi slati v e di st ri ct ; t h at h e w r ot e t o P u bli x S u p e r m a r k et s a s ki n g P u bli x
t o m e et wit h C a pit ol C u p s; a n d t h at h e di d s o o n hi s offi ci al H o u s e l ett e r h e a d
si g ni n g hi m s elf a s S p e a k e r, a n d n ot m e nti o ni n g t h at h e w a s a p ai d c o n s ult a nt.
H u b b a r d p oi nt e d o ut t o t h e C o u r t t h at t h e r e w a s n o e vi d e n c e t h at hi s
w riti n g t hi s l ett e r i n c r e a s e d hi s p e r s o n al w e alt h w h at s o e v e r – h e w a s o n a fi x e d

T h e m aj o rit y al s o i n di c at e d [ 4 4 a] t h at it w a s p e rti n e nt t o t hi s C o u nt, t h at
H u b b a r d v ot e d f o r a m e a s u r e t h at w o ul d b e n efit A P C I w hil e h e h a d t h e
c o n s ulti n g c o nt r a ct wit h A P C I. B ut a g ai n, n o s u c h t h e o r y w a s p r o p e rl y at
i s s u e. H u b b a r d h a d b e e n c h a r g e d i n C o u nt Fi v e wit h v oti n g o n t h at m e a s u r e
u n d e r a c o nfli ct of i nt e r e st; b ut a s t h e C o u rt of C ri mi n al A p p e al s r e c o g ni z e d,
h e si m pl y h a d n o c o nfli ct u n d e r t h e o p e r ati v e st at ut o r y d efi niti o n. H e w a s n ot
c h a r g e d wit h h a vi n g b e e n p ai d t o m a k e t h at v ot e; a n d a s s e e n a b o v e, t h e
p r o s e c ut o r s s ai d t h at a n y q ui d p r o q u o w a s w h oll y i r r el e v a nt t o t h ei r c a s e.

4

11

r et ai n e r, a n d t h e r e w a s n o e vi d e n c e t h at hi s w riti n g t h at l ett e r w o ul d i n c r e a s e
hi s c o m p e n s ati o n o r i n c r e a s e t h e d u r ati o n of hi s c o n s ulti n g c o nt r a ct. T h u s e v e n
if h e u s e d hi s offi ci al p o siti o n i n t hi s r e g a r d, h e di d n ot u s e it “t o o bt ai n p e r s o n al
g ai n f o r hi m s elf o r h e r s elf ” a s t h e st at ut e a n d t h e c h a r g e r e q ui r e d.
T h e S u p r e m e C o u rt of Al a b a m a r ej e ct e d t hi s a r g u m e nt b y m a ki n g a n o v el
a n d s u r p ri si n g h ol di n g of l a w a s a m att e r of fi r st i m p r e s si o n: t h at t h e st at ut o r y
l a n g u a g e i s n ot “li mit e d t o c o n d u ct u s e d t o o bt ai n a c o nt r a ct o r t o i n c r e a s e
c o m p e n s ati o n, ” b ut t h at i s al s o “ i n cl u d e s c o n d u ct i n p e rf o r m a n c e of a fi x e dc o m p e n s ati o n c o nt r a ct .” T h e C o u rt s ai d t h at t h e st at ut o r y l a n g u a g e i n cl u d e s
c o n d u ct i n

p e rf o r m a n c e of a fi x e d -c o m p e n s ati o n c o nt r a ct b e c a u s e s u c h

p e rf o r m a n c e mi g ht aff e ct t h e l e n gt h o r r e n e w al of t h e c o nt r a ct u al r el ati o n s hi p.
[4 9 a -5 0 a ].
W h at e v e r el s e

mi g ht b e s ai d a b o ut t h e

m e rit s of

t h at i nt e r p r et ati o n, it

c e rt ai nl y w a s n ot pl ai n. N o o n e h a d f ai r w a r ni n g t h at d oi n g t hi n g s “t o o bt ai n
p e r s o n al g ai n” i n cl u d e s si m pl y

p e rf o r mi n g

u n d er

a fi x e d -c o m p e n s ati o n

c o nt r a ct. A n d, u n d e r t h e st at ut e, it w a s n ot u nl a wf ul f o r H u b b a r d t o u s e hi s
offi c e (if h e di d s o) t o o bt ai n g ai n f o r C a pit ol C u p s. T h at i s, § 3 6 -2 5 -5( a) al s o
f o r bi d s u s e of o n e’ s offi c e t o o bt ai n g ai n f o r “a n y b u si n e s s wit h w hi c h t h e p e r s o n
i s a s s o ci at e d” – b ut t h e Et hi c s L a w d efi n e s “ b u si n e s s wit h w hi c h t h e p e r s o n i s
a s s o ci at e d,” i n § 3 6 -2 5 -1( 2), i n a w a y t h at d o e s n ot i n cl u d e h a vi n g a c o n s ulti n g

12

c o nt r a ct wit h t h e c o m p a n y. S o, a g ai n, t h e st at ut e di d n ot gi v e H u b b a r d f ai r
w a r ni n g t h at t hi s c o n d u ct – w hi c h di d n ot a n d w o ul d n ot aff e ct hi s i n c o m e –
w a s c ri mi n al.
3 . C o u nt 1 4 a r o s e u n d e r Al a. C o d e § 3 6 -2 5 -5( c), w hi c h p r o vi d e s i n p e rti n e nt
p a rt:
N o p u bli c offi ci al o r p u bli c e m pl o y e e s h all u s e o r c a u s e t o b e u s e d
e q ui p m e nt, f a ciliti e s, ti m e, m at e ri al s, h u m a n l a b o r, o r ot h e r p u bli c
p r o p e rt y u n d e r hi s o r h e r di s c r eti o n o r c o nt r ol f o r t h e p ri v at e
b e n efit o r b u si n e s s b e n efit of t h e p u bli c offi ci al, p u bli c e m pl o y e e,
a n y ot h e r p e r s o n, o r p ri n ci p al c a m p ai g n c o m mitt e e a s d efi n e d i n
S e cti o n 1 7 -2 2 A -2 w hi c h w o ul d m at e ri all y aff e ct hi s o r h e r fi n a n ci al
i nt e r e st, e x c e pt a s ot h e r wi s e p r o vi d e d b y l a w o r a s p r o vi d e d
p u r s u a nt t o a l a wf ul e m pl o y m e nt a g r e e m e nt r e g ul at e d b y a g e n c y
p oli c y. ..
T hi s c o u nt w a s b a s e d o n t h e f a ct t h at H u b b a r d h a d a st aff m e m b e r m a k e
s o m e c all s t o b r e a k a b u r e a u c r ati c l o gj a m t h at w a s i n e x pli c a bl y h o l di n g u p t h e
fi n al i s s u a n c e of a p at e nt t h at h a d b e e n a p p r o v e d. T h e p at e nt b el o n g e d t o
a n ot h e r c o m p a n y h e a d e d b y H u b b a r d’ s c o n stit u e nt R o b e rt A b r a m s, w h o al s o
o w n e d C a pit ol C u p s.
A s t h e pl u r alit y o pi ni o n of t h e S u p r e m e C o u rt of Al a b a m a n ot e d [5 6 a] ,
H u b b a r d c o nt e n d e d t h at t h e r e w a s n o e vi d e n c e t h at t hi s r o uti n e a n d s m all bit
of c o n stit u e nt s e r vi c e (i n t h e w o r d s of t h e st at ut e) “ w o ul d m at e ri all y aff e ct hi s
…

fi n a n ci al i nt e r e st”; t h e r e w a s n o e vi d e n c e t h at t h e l o n g e vit y of t h e C a pit ol

C u p s c o n s ulti n g c o nt r a c t w o ul d b e aff e ct e d i n t h e f ut u r e b y t hi s littl e bit of

13

r o uti n e c o n stit u e nt s e r vi c e. A b r a m s h a d t e stifi e d wit h o ut c o nt r a di cti o n, a s a
wit n e s s i n t h e p r o s e c uti o n’ s c a s e -i n-c hi ef, t h at C a pit ol C u p s r et ai n e d H u b b a r d
a s a c o n s ult a nt b e c a u s e of hi s c o n n e cti o n s i n t h e s p o rt s w o rl d; a s A b r a m s s ai d,
“t h e L e gi sl at u r e h a d n ot hi n g t o d o wit h it.”
T h e pl u r alit y st r et c h e d t h e m e a ni n g of t h at p h r a s e, “ w o ul d m at e ri all y aff e ct
hi s

… fi n a n ci al i nt e r e st” b e y o n d a n yt hi n g of w hi c h f ai r w a r ni n g h a d b e e n

gi v e n; a n d i n d oi n g s o, t h e pl u r alit y r eli e d o n a “ q ui d p r o q u o ” t h e o r y t h at t h e
p r o s e c uti o n h a d ( a s di s c u s s e d a b o v e) d e cl a r e d i r r el e v a nt t o it s c a s e. T h e
pl u r alit y p oi nt e d t o t h e t e sti m o n y t h at H u b b a r d m e nti o n e d t o hi s st aff m e m b e r
t h at h e h a d “ 1 0 0, 0 0 0 r e a s o n s t o g et t hi s d o n e ,” a n u m b e r c o r r e s p o n di n g t o t h e
a m o u nt of p a y m e nt h e h a d, b y t h at p oi nt, r e c ei v e d u n d e r t h e C a pit ol C u p s
c o n s ulti n g c o nt r a ct. [ 5 7 a -5 8 a ]. B ut i n w h at s e n s e w o ul d t h at, if t r u e, m e a n t h at
d oi n g t hi s c o n stit u e nt s e r vi c e w o ul d “ m at e ri all y aff e ct hi s … fi n a n ci al i nt e r e st” ?
T h e pl u r alit y e x pl ai n e d it s c o n cl u si o n t hi s w a y:
[ T]h e j u r y c o ul d r e a s o n a bl y h a v e c o n cl u d e d t h at H u b b a r d s a w t h e
C S P p at e nt w o r k a s di r e ctl y c o n n e ct e d t o hi s C a pit ol C u p s
p a y m e nt s. It w a s n ot n e c e s s a r y f o r t h e St at e t o s h o w t h at t h e
p at e nt w o r k c o n vi n c e d C a pit ol C u p s t o hi r e H u b b a r d i niti all y o r
t h at t h e p at e nt w o r k a ct u all y aff e ct e d t h e l o n g e vit y of t h at
r el ati o n s hi p. R at h e r, t o o v e r c o m e t h e l e g al i m pli c ati o n s of
s e p a r at e c o r p o r at e i d e ntiti e s, it w a s s uf fi ci e nt f o r t h e St at e t o s h o w
t h at H u b b a r d u n d e r st o o d t h e C S P p at e nt w o r k t o b e o n t h e b a si s
of, a n d i n f u rt h e r a n c e of, hi s p a y m e nt s f r o m C a pit ol C u p s .
[5 7 a -5 8 a ]. A g ai n, t h e pl u r alit y o pi ni o n b ot h r eli e s o n a n q ui d p r o q u o f a ct u al

14

t h e o r y (t h at H u b b a r d di d c o n stit u e nt s e r vi c e f o r o n e c o m p a n y b e c a u s e h e w a s
p ai d u n d e r a c o n s ulti n g c o nt r a ct wit h a n ot h e r r el at e d c o m p a n y) , a n d r eli e s o n
a n u n n at u r al a n d u n p r e di ct a bl e r e a di n g of t h e p h r a s e “ w o ul d m at e ri all y aff e ct
hi s … fi n a n ci al i nt e r e st.”
4. C o u nt s 1 2 a n d 1 3 a r o s e u n d e r Al a. C o d e § 3 6 -2 5 -1. 1, w hi c h p r o vi d e s:
N o m e m b e r of t h e L e gi sl at u r e, f o r a f e e, r e w a r d, o r ot h e r
c o m p e n s ati o n, i n a d diti o n t o t h at r e c ei v e d i n hi s o r h e r offi ci al
c a p a cit y, s h all r e p r e s e nt a n y p e r s o n, fi r m, c o r p o r ati o n, o r ot h e r
b u si n e s s e ntit y b ef o r e a n e x e c uti v e d e p a rt m e nt o r a g e n c y.
T h e s e c o u nt s, t o o, h a d t o d o

wit h

mi n o r c o n stit u e nt s e r vi c e f o r a n ot h e r

c o r p o r ati o n h e a d e d b y t h e e nt r e p r e n e u r w h o o w n e d C a pit ol C u p s. T h e c h a r g e
i n t h e s e c o u nt s w a s t h at H u b b a r d s e c u r e d

m e eti n g s f o r t h at c o m p a n y wit h

c e rt ai n st at e e x e c uti v e offi ci al s. [ 5 9 a].
T h e pl u r alit y of t h e C o u rt a g r e e d t h at t h e w o r d “f o r,” i n t h e st at ut e, m e a nt
t h at t h e r e h a d t o b e a n “ e x c h a n g e” of

m o n e y f o r r e p r e s e nt ati o n – wit h t h e

e x a m pl e of “ $ 1 0 f o r a h at” [ 6 1 a], w hi c h pl ai nl y m e a n s a lit e r al e x c h a n g e of t hi s
f o r t h at, q ui d p r o q u o . Y et, a s w e h a v e s e e n, t h e p r o s e c uti o n c h a r g e d n o q ui d
p r o q u o a n d d e cl a r e d it i r r el e v a nt w h et h e r t h e r e w a s a q ui d p r o q u o . T h e
pl u r alit y t h e n s e e m e d t o w e a k e n t h e w o r d “f o r” b e y o n d r e c o g niti o n, m a ki n g it
n o l o n g e r r e q ui r e a n a ct u al e x c h a n g e b ut m e r el y p r o of of a “ c a u s al” c o n n e cti o n
[6 2 a ]

w hi c h s e e mi n gl y

w o ul d b e

m et b y t h e i d e a t h at

H u b b a r d di d t hi s

c o n stit u e nt s e r vi c e b e c a u s e (f o r i n st a n c e) h e w a s t h a n kf ul f o r t h e c o n s ulti n g

15

c o nt r a ct wit h C a pit ol C u p s [ 6 2 a].
If t h e pl u r alit y m e a nt t o s u g g e st t h at H u b b a r d w a s a ct u all y p ai d “f o r” d oi n g
t hi s c o n stit u e nt s e r vi c e, i n t h e o r di n a r y m e a ni n g of t h at w o r d “f o r,” t h e n o n c e
a g ai n t h e pl u r alit y affi r m e d a c o n vi cti o n b a s e d o n t h e q ui d p r o q u o t h e o r y t h at
t h e p r o s e c uti o n h a d di s a v o w e d a s i r r el e v a nt t o it s c a s e. If t h e pl u r alit y i n st e a d
m e a nt t h at b ei n g

m oti v at e d

m e r el y b y a p p r e ci ati v e n e s s f o r t h e c o n s ulti n g

c o nt r a ct w o ul d b e e n o u g h t o c o u nt a s t h e r e q ui sit e “ c a u s al” c o n n e cti o n, t h e n
t h e pl u r alit y a d o pt e d a n u n e x p e ct a bl e r e a di n g of t h e st at ut e a n d H u b b a r d h a d
n o f ai r w a r ni n g.
______________
T h e p r o s e c u ti o n a n d c o n vi cti o n of

Mi k e H u b b a r d, a n d t h e affi r m a n c e of

s o m e c o n vi cti o n s b y t h e st at e a p p ell at e c o u rt s, a r e t h e a r c h et y p al e x a m pl e of
w h at t hi s C o u rt’ s d u e p r o c e s s p r e c e d e nt s a r e m e a nt t o p r e v e nt.
H e w a s t a r g et e d b y a p r o s e c ut o r w h o, a c c o r di n g t o u n di s p ut e d t e sti m o n y,
t ol d a c oll e a g u e t h at h e h a d “ d et e r mi n e d [t h at H u b b a r d] w a s a b a d g u y a n d
t h at w hil e h e h a d -- m a y n ot h a v e c o m mitt e d c ri m e, h e h a d d o n e e v e r yt hi n g
p o s si bl e t o l o o k g uilt y,” a n d s o t h e p r o s e c ut o r h a d d e ci d e d t o “ti e a n o o s e a r o u n d
[ H u b b a r d’ s] [ e x pl eti v e] n e c k a n d ci n c h it d o w n u ntil h e i s g r a s pi n g f o r
[ e x pl eti v e] ai r, a n d t h e n p e r h a p s t h e n [ H u b b a r d]
r e si g n.”

16

w o ul d pl e a d g uilt y a n d

H e w a s, u n di s p ut e dl y, o v e r c h a r g e d a n d c h a r g e d u n d e r st at ut e s t h at si m pl y
di d n ot a p pl y. T h e C o u rt of C ri mi n al A p p e al s r e c o g ni z e d t h at t h e l a w c h a r g e d
i n C o u nt 5 si m pl y di d n ot a p pl y b e c a u s e H u b b a r d h a d n o c o nfli ct of i nt e r e st
u n d e r t h e st at ut o r y d efi niti o n. T h e S u p r e m e C o u rt of Al a b a m a r e c o g ni z e d t h at
fi v e m o r e c o u nt s w e r e b a s el e s s u n d e r t h e l a w a n d t h e u n di s p ut e d f a ct s. Y et t h e
st at e a p p ell at e c o u rt s di d n ot r e c o g ni z e t h at t h e s a m e w a s t r u e a s t o all t h e
r e m ai ni n g c o u nt s – s o l o n g a s o n e r e m e m b e r s t h e d u e p r o c e s s r e q ui r e m e nt of
“f ai r n oti c e” o r “f ai r w a r ni n g,” a n d s o l o n g a s o n e d o e s n ot c h a n g e t h e f a ct u al
t h e o r y on a p p e al.
H u b b a r d i s n ot a s ki n g t hi s C o u rt t o t ell Al a b a m a’ s c o u rt s w h at Al a b a m a
l a w m e a n s. O n a p r o s p e cti v e b a si s, t h e Al a b a m a c o u rt s c a n i nt e r p r et t h e l a w s
a s t h e y s e e fit. W h at i s i m p e r mi s si bl e, a n d u n c o n stit uti o n al, i s t o c o n vi ct a n d
i m p ri s o n

H u b b a r d – a n d t o affi r m t h e c o n vi cti o n s a s a

m att e r of fi r st -

i m p r e s si o n st at ut o r y c o n st r u cti o n – f o r d oi n g t hi n g s t h at w e r e n ot cl e a rl y
p r o hi bit e d b y t h e l a w s i n q u e sti o n.
C o n cl u si o n
P etiti o n e r Mi k e H u b b a r d r e s p e ctf ull y r e q u e st s t h at t h e C o u rt h e a r hi s c a s e.

17

T a bl e of C o n t e n t s
A p p e n di x
A: O pi ni o n of S u p r e m e C o u rt of Al a b a m a . . . . . . . . . . . . . . . . . . . . . . . . . .

1a

B: O pi ni o n of Al a b a m a C o u rt of C ri mi n al A p p e al s . . . . . . . . . . . . . . . . .

100a

C: O r d e r of S u p r e m e C o u rt o f Al a b a m a d e n yi n g r e h e a ri n g . . . . . . . . . .

260a

D: St at ut e s . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .

261a

